 Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL



 MEDICARE COULD HAVE SAVED
MILLIONS IF ORGAN PROCUREMENT
ORGANIZATIONS HAD CORRECTLY
  REPORTED PROCUREMENT OF
 DOUBLE LUNGS AS TWO ORGANS



   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Gloria L. Jarmon
                                                 Deputy Inspector General

                                                       December 2013
                                                       A-09-12-02085
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 Medicare could have saved an estimated $8.9 million if organ procurement organizations
 had correctly reported procurement of double lungs as two organs in their fiscal year 2011
 Medicare cost reports.

WHY WE DID THIS REVIEW

Organ procurement organizations (OPOs) are not-for-profit organizations that facilitate organ
donation and transplantation. An OPO may be an independent entity or part of a hospital. A
previous Office of Inspector General review identified an issue related to how independent OPOs
reported procurement of double lungs (the left and right lungs) for cost allocation purposes.

The objectives of this review were (1) to determine whether OPOs nationwide reported lung
statistics correctly by reporting double lungs as two organs instead of one organ in their fiscal
year (FY) 2011 Medicare cost reports and, if they did not, (2) to estimate how much the
Medicare program could have saved if OPOs had correctly reported double lungs.

BACKGROUND

Transplant hospitals perform organ transplants and provide other medical services to transplant
patients; these hospitals may have one or more types of organ transplant centers. To be
reimbursed by Medicare, a transplant center must be Medicare certified. Independent OPOs are
paid for procuring kidneys and other organs by transplant hospitals. The Centers for Medicare &
Medicaid Services (CMS) makes retroactive adjustments directly with independent OPOs to
reconcile any overpayments and underpayments the OPOs received from transplant hospitals for
kidneys furnished for transplant to Medicare beneficiaries. In total, independent OPOs were
reimbursed about $391 million for procuring kidneys in FY 2011. Medicare reimburses hospital-
based OPOs through associated transplant hospitals for the costs of procuring all organs
transplanted to Medicare beneficiaries (about $77 million in FY 2011).

For cost allocation purposes, independent OPOs report the number of kidney and nonkidney
organs (including lungs) that they procured or processed. CMS guidance instructs independent
OPOs to report kidneys as two organs when both kidneys are procured. CMS guidance does not
specifically address reporting of double lungs; however, because lungs (like kidneys) are in
pairs, they are procured as one or two organs and should be reported as such. If an independent
OPO understates the number of lungs procured, organ procurement costs will not be properly
allocated among kidney and nonkidney organs. Kidney procurement costs will reflect costs that
should have been allocated to nonkidney organs, resulting in Medicare’s share of costs being
overstated.

Hospital-based OPOs report the number of organs procured or processed for each type of organ
they are certified to transplant. Medicare reimburses hospital-based OPOs for organ
procurement costs according to the ratio of Medicare usable organs to total usable organs. If a
hospital-based OPO overstates or understates the number of usable lungs procured, the complex



Organ Procurement Organizations’ Reporting of Lung Statistics in Medicare Cost Reports (A-09-12-02085)   i
calculations that include the ratio of Medicare usable lungs to total usable lungs will be affected,
and Medicare’s share of organ procurement costs will be overstated or understated.

HOW WE CONDUCTED THIS REVIEW

In their FY 2011 Medicare cost reports, the 51 independent OPOs reported $88.6 million for the
costs of procuring 2,645 lungs, and the 3 hospital-based OPOs with Medicare-certified lung
transplant centers reported $5 million for the Medicare reimbursable costs of procuring 213 total
usable lungs. We reviewed the lung statistics reported for the 54 OPOs to determine whether
they reported double lungs as 1 or 2 organs and estimated how much the Medicare program
could have saved if OPOs had correctly reported double lungs as 2 organs.

WHAT WE FOUND

Of the 54 OPOs, 44 reported lung statistics incorrectly in their FY 2011 Medicare cost reports:

    •   Of the 51 independent OPOs reviewed, 43 incorrectly reported double lungs as 1 organ.
        Specifically, the OPOs understated the number of lungs procured by reporting
        1,691 lungs instead of 3,382 lungs. We estimated that Medicare’s share of organ
        procurement costs was overstated by $9,039,419.

    •   Of the three hospital-based OPOs reviewed, one incorrectly reported double lungs as
        one organ. Specifically, the OPO understated the number of lungs procured by reporting
        30 lungs instead of 60 lungs. We estimated that Medicare’s share of organ procurement
        costs was understated by $188,401.

Both independent and hospital-based OPOs incorrectly reported lung statistics because they
relied on CMS’s Provider Reimbursement Manual, which does not provide specific instructions
on reporting double lungs. If the 44 OPOs (43 independent OPOs and 1 hospital-based OPO)
had reported procurement of 1,721 double lungs correctly, the Medicare program could have
saved an estimated net amount of $8,851,018 during the year.

WHAT WE RECOMMEND

To help realize future savings for the Medicare program, we recommend that CMS:

    •   clarify instructions on how independent and hospital-based OPOs should report lung
        statistics in Medicare cost reports and

    •   work with the Medicare contractors to educate OPOs on the correct reporting of double
        lungs in Medicare cost reports.

CMS COMMENTS

In written comments on our draft report, CMS concurred with our recommendations and
provided information on actions that it planned to take to address our recommendations.


Organ Procurement Organizations’ Reporting of Lung Statistics in Medicare Cost Reports (A-09-12-02085)   ii
                                                     TABLE OF CONTENTS

INTRODUCTION ..................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objectives ...................................................................................................................... 1

           Background .................................................................................................................... 1
                 Medicare Program .............................................................................................. 1
                 Organ Procurement Organizations..................................................................... 1
                 Medicare Reimbursement of Organ Procurement Organizations ...................... 2

           How We Conducted This Review.................................................................................. 3

FINDINGS ................................................................................................................................. 4

           Forty-Three Independent Organ Procurement Organizations Incorrectly Reported
            Double Lungs .............................................................................................................. 4

           One Hospital-Based Organ Procurement Organization Incorrectly Reported
            Double Lungs .............................................................................................................. 5

           Medicare Could Have Saved an Estimated $8.9 Million if Double Lungs
            Had Been Correctly Reported ..................................................................................... 6

RECOMMENDATIONS ........................................................................................................... 6

CMS COMMENTS ................................................................................................................... 6

APPENDIXES

           A: Audit Scope and Methodology ................................................................................ 7

           B: CMS Comments ....................................................................................................... 9




Organ Procurement Organizations’ Reporting of Lung Statistics in Medicare Cost Reports (A-09-12-02085)                                           iii
                                                INTRODUCTION

WHY WE DID THIS REVIEW

Organ procurement organizations (OPOs) are not-for-profit organizations that facilitate organ
donation and transplantation. An OPO may be an independent entity or part of a hospital. A
previous Office of Inspector General review identified an issue related to how independent OPOs
reported procurement of double lungs (the left and right lungs) for cost allocation purposes. 1

OBJECTIVES

Our objectives were (1) to determine whether OPOs nationwide reported lung statistics correctly
by reporting double lungs as two organs instead of one organ in their fiscal year (FY) 2011
Medicare cost reports and, if they did not, (2) to estimate how much the Medicare program could
have saved if OPOs had correctly reported double lungs.

BACKGROUND

Medicare Program

The Medicare program provides health insurance for people aged 65 and over, those with certain
disabilities, and those with end-stage renal disease, which is permanent kidney failure. The
Social Security Act (the Act) authorizes Medicare reimbursement for dialysis and transplantation
and procurement of kidneys (§ 1881). The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Organ Procurement Organizations

OPOs coordinate the procurement, preservation, and transport of organs and maintain a system
for locating prospective recipients for available organs. CMS certifies OPOs to recover or
procure organs in CMS-defined exclusive geographic service areas. For organ procurement
costs to be reimbursed under Medicare, an OPO must be a “qualified organ procurement
organization” 2 and meet several other statutory requirements, which include membership in the
Organ Procurement and Transplantation Network (the Act, § 1138(b)(1)).

Independent OPOs are freestanding organizations that have a distinct governing body separate
from any transplant hospital; hospital-based OPOs operate within an associated transplant
hospital’s administrative and financial structure. Transplant hospitals perform organ transplants
and provide other medical services required to care for transplant patients.



1
 LifeCenter Northwest Did Not Fully Comply With Medicare Requirements for Reporting Organ Statistics in Its
Fiscal Year 2009 Medicare Cost Report (A-09-11-02039), issued November 15, 2012.
2
    As described in section 371(b) of the Public Health Service Act.



Organ Procurement Organizations’ Reporting of Lung Statistics in Medicare Cost Reports (A-09-12-02085)        1
Transplant hospitals may have one or more types of organ transplant centers (e.g., kidney, lung,
heart, liver, and pancreas transplant centers). To be reimbursed by Medicare, a transplant center
must be Medicare certified.

Medicare Reimbursement of Organ Procurement Organizations

CMS requires OPOs to submit Medicare cost reports annually to determine the amounts payable
under Medicare for the reasonable costs of procuring organs. At the end of the year, each OPO
files a Medicare cost report. The Medicare contractor 3 reconciles any direct Medicare payments
as well as payments that the OPO received from other OPOs and transplant hospitals with
Medicare allowable costs to determine any Medicare overpayment or underpayment to the OPO.

All independent OPOs submit their cost reports to the same Medicare contractor. Hospital-based
OPOs’ organ procurement costs are included in their associated transplant hospitals’ cost reports,
which are submitted to the Medicare contractors in their respective regions.

Medicare reimburses OPOs on a reasonable cost basis. Section 1861(v)(1)(A) of the Act
requires that costs be properly allocated and apportioned to ensure that Medicare pays only for
costs related to patient care and only its share of those costs.

Independent Organ Procurement Organizations

Independent OPOs do not bill Medicare directly for organ procurement services. Independent
OPOs are paid for procuring kidneys and other organs, generally by transplant hospitals, which
pay the OPOs’ standard acquisition charges for those organs. Using the independent OPOs’ cost
reports, CMS makes retroactive adjustments directly with the OPOs to reconcile any
overpayments or underpayments resulting from the total payments that these OPOs received
from the transplant hospitals for kidneys furnished for transplant to Medicare beneficiaries;
however, there are no such adjustments for nonkidney organs (42 CFR § 413.200).

Organ procurement costs consist of direct, overhead, and administrative and general costs.
Independent OPOs assign direct costs to a particular organ if the costs are specifically
identifiable to that organ. For direct costs that are not specifically identifiable, OPOs are
required to allocate those costs among the organs procured (CMS’s Provider Reimbursement
Manual (the Manual), part 2, chapter 33, § 3306). For cost allocation purposes, OPOs report the
number of kidney and nonkidney organs (including lungs) that they procured or processed (the
Manual, part 2, § 3303.1). Overhead costs are allocated on the basis of the total number of
organs procured. Administrative and general costs are allocated to a particular organ on the basis
of the total accumulated direct and overhead costs (the Manual, part 2, § 3311).

If an independent OPO overstates the number of kidneys procured or understates the number of
nonkidney organs procured, organ procurement costs will not be properly allocated among


3
 For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or Medicare
administrative contractor, whichever is applicable.



Organ Procurement Organizations’ Reporting of Lung Statistics in Medicare Cost Reports (A-09-12-02085)             2
kidney and nonkidney organs. Kidney procurement costs will reflect costs that should have been
allocated to nonkidney organs, resulting in Medicare’s share of costs being overstated.

In their FY 2011 Medicare cost reports, 51 independent OPOs reported total organ procurement
costs of approximately $1.34 billion. Of this amount, about $391 million was for kidney
procurement costs that were reimbursable under Medicare Part A. In addition, the independent
OPOs reported $88.6 million for the costs of procuring 2,645 lungs.

Hospital-Based Organ Procurement Organizations

Medicare directly reimburses hospital-based OPOs through associated transplant hospitals for the
costs of procuring kidney and nonkidney organs transplanted in a certified transplant center.
These costs consist of direct, allocated general service and routine and ancillary costs, as well as
costs for certain interns and residents and teaching physicians.

Hospital-based OPOs report total Medicare reimbursable organ procurement costs in the
applicable worksheet of their associated transplant hospitals’ Medicare cost reports. To be
reimbursed by Medicare for a specific type of organ, the transplant hospital must operate a
Medicare-certified transplant center for that organ (the Manual, part 2, chapter 40, § 4028).

Medicare reimburses organ procurement costs according to the ratio of Medicare usable organs
to total usable organs (the Manual, part 2, § 4028.3). 4 If a hospital-based OPO overstates or
understates the number of usable lungs procured, the complex calculations that include the ratio
of Medicare usable lungs to total usable lungs will be affected, and Medicare’s share of organ
procurement costs will be overstated or understated.

In their FY 2011 Medicare cost reports, seven hospital-based OPOs were associated with a
transplant hospital that had at least one certified transplant center and reported approximately
$76.9 million of organ procurement costs that were reimbursable under Medicare Part A. Three
of these OPOs were associated with transplant hospitals that had Medicare-certified lung
transplant centers; these OPOs reported $5 million for the Medicare reimbursable costs of
procuring 213 total usable lungs.

HOW WE CONDUCTED THIS REVIEW

We reviewed the lung statistics reported in the FY 2011 5 Medicare cost reports of 54 OPOs
(51 independent and 3 hospital-based OPOs) to determine whether they reported double lungs as
1 or 2 organs. We did not review lung statistics for four hospital-based OPOs because the
associated transplant hospitals did not have Medicare-certified lung transplant centers.

4
 Medicare usable organs are all transplantable organs except organs sold to military hospitals (with limited
exceptions), organs sold to veterans’ hospitals, organs sent outside the United States, and organs transplanted into
non-Medicare beneficiaries. Total usable organs include all organs except those that could not be transplanted.
5
 The specific beginning and ending dates for FY 2011 varied among the OPOs, ranging from a beginning date of
June 1, 2010, to an ending date of December 31, 2011.



Organ Procurement Organizations’ Reporting of Lung Statistics in Medicare Cost Reports (A-09-12-02085)                 3
We estimated the cost savings to Medicare if the OPOs had correctly reported double lungs as
two organs instead of one organ; however, our estimate did not include the impact associated
with the reallocation of direct costs not specifically identifiable to an organ.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                                FINDINGS

Of the 54 OPOs, 44 reported lung statistics incorrectly in their FY 2011 Medicare cost reports:

    •   Of the 51 independent OPOs reviewed, 43 incorrectly reported double lungs as 1 organ.
        Specifically, the OPOs understated the number of lungs procured by reporting
        1,691 lungs instead of 3,382 lungs. We estimated that Medicare’s share of organ
        procurement costs was overstated by $9,039,419.

    •   Of the three hospital-based OPOs reviewed, one incorrectly reported double lungs as
        one organ. Specifically, the OPO understated the number of lungs procured by reporting
        30 lungs instead of 60 lungs. We estimated that Medicare’s share of organ procurement
        costs was understated by $188,401.

Both independent and hospital-based OPOs incorrectly reported lung statistics because they
relied on the Manual, which does not provide specific instructions on reporting double lungs. If
the 44 OPOs (43 independent OPOs and 1 hospital-based OPO) had reported procurement of
1,721 double lungs correctly, the Medicare program could have saved an estimated net amount
of $8,851,018 during the year.

FORTY-THREE INDEPENDENT ORGAN PROCUREMENT ORGANIZATIONS
INCORRECTLY REPORTED DOUBLE LUNGS

The Manual, part 2, chapter 33, instructs independent OPOs on how to complete the Medicare
cost report, including reporting of organ statistics. Section 3303.1 of the Manual requires
independent OPOs to report the total number of kidney and nonkidney organs that were procured
and/or processed. For cost allocation purposes, section 3306 further instructs independent OPOs
to report kidneys as two organs when both kidneys are procured. Chapter 33 of the Manual does
not provide specific instructions on how to report double lungs. However, CMS confirmed that,
because lungs (like kidneys) are in pairs, they are procured as either one or two organs and
should be reported as such.

The 51 independent OPOs reported 2,645 lungs instead of 4,336 lungs in their FY 2011
Medicare cost reports. The number of lungs was understated by approximately 39 percent


Organ Procurement Organizations’ Reporting of Lung Statistics in Medicare Cost Reports (A-09-12-02085)   4
because 43 OPOs incorrectly reported double lungs as 1 organ. Specifically, the 43 OPOs
understated the number of lungs procured by reporting 1,691 lungs instead of 3,382 lungs.
Because the number of lungs procured was understated, organ procurement costs were not
properly allocated among kidney and nonkidney organs, and kidney procurement costs reflected
costs that should have been allocated to nonkidney organs, including lungs. As a result,
Medicare’s share of organ procurement costs was overstated.

According to the 43 OPOs, they relied on chapter 33 of the Manual, which does not specifically
instruct independent OPOs on how to report double lungs. In addition, 17 of the 43 OPOs stated
that they also relied on Medicare contractor 6 guidance, which instructed the OPOs to report
double lungs on the basis of the number of transplant recipients (that is, double lungs for
1 recipient would be counted as 1 organ). The guidance also instructed the OPOs to report
double lungs as two organs if the lungs were billed at double the rate of a single lung. 7

We estimated that Medicare’s share of organ procurement costs was overstated by $9,039,419 in
FY 2011. The estimated overstated amounts for the 43 OPOs ranged from $23,770 to $758,953
for incorrectly reporting from 3 to 121 double lungs.

ONE HOSPITAL-BASED ORGAN PROCUREMENT ORGANIZATION
INCORRECTLY REPORTED DOUBLE LUNGS

The Manual, part 2, chapter 40, instructs hospitals and hospital health-care complexes on how to
complete the hospital Medicare cost report. Chapter 40 instructs hospital-based OPOs on the
reporting of Medicare usable organs and total usable organs. However, it does not specifically
instruct hospital-based OPOs on how to report double lungs.

The 3 hospital-based OPOs that we reviewed reported 213 total usable lungs in their FY 2011
Medicare cost reports. One of these OPOs incorrectly reported double lungs as one organ.
Specifically, the OPO understated the number of lungs procured by reporting 30 lungs instead of
60 lungs. Because the number of Medicare usable lungs procured was understated, the ratio of
Medicare usable lungs to total usable lungs was understated and Medicare’s share of organ
procurement costs was understated.

According to the OPO that reported double lungs incorrectly, it relied on chapter 40 of the
Manual; however, chapter 40 provides instructions on computing organ procurement costs and
charges for transplant hospitals, not reporting double lungs. In addition, the OPO stated that it
did not receive Medicare contractor guidance on reporting organ statistics.

We estimated that Medicare’s share of organ procurement costs was understated by $188,401 in
FY 2011.

6
    The OPOs referred to Medicare contractor guidance published as long ago as 1986.
7
 According to the 43 OPOs that reported double lungs as 1 organ, the amounts billed for single lungs ranged from
$24,000 to $52,500, and the amounts billed for double lungs ranged from $30,000 to $73,000. Of these OPOs,
30 billed for double lungs at a higher rate than single lungs but less than double the rate of a single lung.



Organ Procurement Organizations’ Reporting of Lung Statistics in Medicare Cost Reports (A-09-12-02085)             5
MEDICARE COULD HAVE SAVED AN ESTIMATED $8.9 MILLION
IF DOUBLE LUNGS HAD BEEN CORRECTLY REPORTED

Of the 54 independent and hospital-based OPOs, 44 reported lung statistics incorrectly in their
FY 2011 Medicare cost reports. If the 44 OPOs had reported procurement of 1,721 double lungs
correctly, the Medicare program could have saved an estimated net amount of $8,851,018.

                                       RECOMMENDATIONS

To help realize future savings for the Medicare program, we recommend that CMS:

    •   clarify instructions on how independent and hospital-based OPOs should report lung
        statistics in Medicare cost reports and

    •   work with the Medicare contractors to educate OPOs on the correct reporting of double
        lungs in Medicare cost reports.

                                           CMS COMMENTS

In written comments on our draft report, CMS concurred with our recommendations and
provided information on actions that it planned to take to address our recommendations. CMS’s
comments are included in their entirety as Appendix B.




Organ Procurement Organizations’ Reporting of Lung Statistics in Medicare Cost Reports (A-09-12-02085)   6
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

We reviewed the lung statistics reported in the FY 2011 Medicare cost reports of 54 OPOs
(51 independent and 3 hospital-based OPOs) to determine whether they reported double lungs as
1 or 2 organs. We did not review lung statistics for four hospital-based OPOs because the
associated transplant hospitals did not have Medicare-certified lung transplant centers.

We estimated the cost savings to Medicare if the OPOs had correctly reported double lungs as
two organs instead of one organ; however, our estimate did not include the impact associated
with the reallocation of direct costs not specifically identifiable to an organ.

We did not review the overall internal control structure of the 54 OPOs. Rather, we limited our
review of internal controls to those that were significant to the objectives of our audit.

We conducted our fieldwork from October 2012 to April 2013, which consisted of contacting the
independent and hospital-based OPOs and five Medicare contractors.

METHODOLOGY

To accomplish our objectives, we:

    •   reviewed Federal laws, regulations, and guidance;

    •   held discussions with CMS and Medicare contractors to obtain an understanding of how
        Medicare reimburses independent and hospital-based OPOs and how double lungs should
        be reported for Medicare cost allocation purposes;

    •   contacted Medicare contractors for independent and hospital-based OPOs to determine
        what, if any, guidance was provided to OPOs related to the reporting of organ statistics;

    •   contacted all 58 OPOs nationwide to determine whether they reported Medicare
        reimbursable lung statistics in their FY 2011 cost reports;

    •   reviewed Medicare cost report documentation from 54 OPOs to determine how they
        reported double lungs and what guidance they relied on for reporting organ statistics;

    •   used the OPOs’ cost reports to calculate the effect on Medicare reimbursement for the
        independent OPOs that incorrectly reported double lungs;

    •   requested that the Medicare contractor rerun the cost report for the hospital-based OPO
        that incorrectly reported double lungs and calculate the effect on Medicare
        reimbursement;




Organ Procurement Organizations’ Reporting of Lung Statistics in Medicare Cost Reports (A-09-12-02085)   7
    •   estimated the net amount that Medicare could have saved if both independent and
        hospital-based OPOs had correctly reported double lungs in their FY 2011 Medicare cost
        reports; and

    •   discussed the results of our audit with CMS officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Organ Procurement Organizations’ Reporting of Lung Statistics in Medicare Cost Reports (A-09-12-02085)   8
                                 APPENDIX B: CMS COMMENTS




Organ Procurement Organizations’ Reporting of Lung Statistics in Medicare Cost Reports (A-09-12-02085)   9
Organ Procurement Organizations’ Reporting of Lung Statistics in Medicare Cost Reports (A-09-12-02085)   10
